OIG Audit Report GR-40-01-001
Office of Community Oriented Policing Services
	Grants to the
City of Jackson, Mississippi, Police Department
Audit Report GR-40-01-001February 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the city of Jackson, Mississippi, Police Department (the grantee).  The purpose of the grants is to enhance community policing.  The grantee was awarded a total of $4,452,356 to hire 67 new police officers and redeploy 39.4 existing full-time officers into community policing.

	We reviewed the grantee's compliance with eight essential grant conditions.  We found the grantee's budgeting for officers, redeployment practices, and source of local matching funds acceptable.  However, we found weaknesses in other areas as identified below.  As a result, we question grant funds spent of $3,173,594 and identified $2,216 of enhanced revenue. 1

Additional officers were not hired and maintained, resulting in $3,173,594 questioned costs.

The grantee planned to retain the COPS funded officers, but the positions were absorbed into locally funded positions through attrition rather than becoming additional positions. 

For the redeployment grant program, the grantee withdrew funds in advance of when needed as allowed by COPS guidelines.  However, the grantee did not remit $2,216 in interest earnings to the Department of Health and Human Services as required.

Community policing activities were not enhanced as a result of the hiring of grant funded officers.

Several monitoring reports and financial status reports were not timely, or were not submitted.
   
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 



Footnotes


The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and enhanced revenue.